                                                       Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           Of Transportation
           Office of Inspector General
Subject:   INFORMATION: Audit Announcement—                        Date:    May 9, 2006
           Review of FAA’s Actions To Address Runway
           Incursions at Boston Logan, Chicago O’Hare,
           and Philadelphia International Airports
           Project No. 06A3009A000

  From:                                                          Reply to   JA-10
           David A. Dobbs                                        Attn of:
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Ramesh K. Punwani
           Assistant Administrator
            for Financial Services/CFO

           One of the primary indicators of the safety of the National Airspace System is
           runway incursions (potential collisions on the ground). Reducing runway
           incursions is a key performance goal for the Federal Aviation Administration
           (FAA) that requires attention at all levels of the Agency. Compared to 5 years
           ago, FAA has made progress in reducing runway incursions. The total number
           of runway incursions decreased from a high of 407 in fiscal year (FY) 2001 to
           327 in FY 2005, and the most serious incidents (Category A and B) decreased
           from 53 to 29.

           However, there has recently been an increase in the number and severity of
           runway incursions at three major airports—Boston Logan, Chicago O’Hare,
           and Philadelphia International. During the period FY 2005 through April 2006
           Boston Logan had 18 incidents (1 severe), Chicago O’Hare had 12 incidents
           (3 severe), and Philadelphia had 13 incidents (1 severe involving a collision).
           Those were the highest number of runway incursions among the nation’s large
           commercial airports.

           The objectives of this audit are to assess the actions taken by FAA to
           (1) identify and correct the causes of recent runway incursions at Boston
                                                                            2

Logan, Chicago O’Hare, and Philadelphia International Airports and
(2) address those issues that could affect safety system-wide.

We plan to begin the audit the week of May 15, 2006, and will contact your
audit liaison to schedule an entrance conference. If you have any questions or
need additional information, please call Dan Raville, Program Director, at
(202) 366-1405 or Mary E. (Liz) Hanson, Project Manager, at (404) 562-3778.

                                     #

cc: FAA Chief of Staff
    Anthony Williams, ABU-100
    Martin Gertel, M-1
